<html>
<title> - [H.A.S.C. No. 116-36] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2020 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED SIXTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-36]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2020

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                   SUBCOMMITTEE ON READINESS HEARING

                                   ON

                    FISCAL YEAR 2020 BUDGET REQUEST

     FOR MILITARY CONSTRUCTION, ENERGY, AND ENVIRONMENTAL PROGRAMS

                               __________

                              HEARING HELD
                              MAY 1, 2019


                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                           ______

              U.S. GOVERNMENT PUBLISHING OFFICE 
 37-512                WASHINGTON : 2020 
 
 

                                     
  


                       SUBCOMMITTEE ON READINESS

                  JOHN GARAMENDI, California, Chairman

TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
ANDY KIM, New Jersey, Vice Chair     AUSTIN SCOTT, Georgia
KENDRA S. HORN, Oklahoma             JOE WILSON, South Carolina
CHRISSY HOULAHAN, Pennsylvania       ROB BISHOP, Utah
JASON CROW, Colorado                 MIKE ROGERS, Alabama
XOCHITL TORRES SMALL, New Mexico     MO BROOKS, Alabama
ELISSA SLOTKIN, Michigan             ELISE M. STEFANIK, New York
VERONICA ESCOBAR, Texas              JACK BERGMAN, Michigan
DEBRA A. HAALAND, New Mexico
               Jeanine Womble, Professional Staff Member
                Dave Sienicki, Professional Staff Member
                          Megan Handal, Clerk
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Garamendi, Hon. John, a Representative from California, Chairman, 
  Subcommittee on Readiness......................................     1
Lamborn, Hon. Doug, a Representative from Colorado, Ranking 
  Member, Subcommittee on Readiness..............................     3

                               WITNESSES

Beehler, Hon, Alex A., Assistant Secretary of the Army for 
  Installations, Energy and Environment, Department of the Army
Henderson, Hon. John W., Assistant Secretary of the Air Force for 
  Installations, Environment and Energy, Department of the Air 
  Force
McMahon, Hon. Robert H., Assistant Secretary of Defense for 
  Sustainment, Department of Defense
Mellon, Todd C., Performing the Duties of Principal Deputy 
  Assistant Secretary of the Navy for Energy, Installations and 
  Environment, Department of the Navy

                                APPENDIX

Prepared Statements:

    Beehler, Hon, Alex A.........................................    69
    Garamendi, Hon. John.........................................    39
    Henderson, Hon. John W.......................................    92
    Lamborn, Hon. Doug...........................................    41
    McMahon, Hon. Robert H.......................................    42
    Mellon, Todd C...............................................    81

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Bishop...................................................   117
    Ms. Escobar..................................................   118
    Ms. Stefanik.................................................   118
    Mr. Wilson...................................................   117
    
    
                  FISCAL YEAR 2020 BUDGET REQUEST FOR

       MILITARY CONSTRUCTION, ENERGY, AND ENVIRONMENTAL PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                            Washington, DC, Wednesday, May 1, 2019.
    The subcommittee met, pursuant to call, at 2:35 p.m., in 
room 2212, Rayburn House Office Building, Hon. John Garamendi 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JOHN GARAMENDI, A REPRESENTATIVE FROM 
        CALIFORNIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Garamendi. The committee will come to order.
    For the information for everybody that might be interested, 
votes ended just a few moments ago and I suspect our colleagues 
will be drifting in as they complete it.
    Also on the floor, probably right now, is some 
commemorations and condolences for the lady who had my seat, 
Ellen Tauscher. So we all mourn her loss.
    Let's see here. So today's witnesses oversee a diverse set 
of programs that are all of great interest to this committee, 
including the privatized military family housing, military 
construction, installation resiliency, disaster recovery, 
environmental programs, and planning for climate change.
    Our installations are the backbone of the services and are 
critical for readiness. They are the place where we train the 
force, maintain weapons and equipment, and the platform from 
which we project power. Our installations support our military 
families and provide a safe place for our forces when they come 
back after deployment so that they can recover personally and 
reconstitute as a unit.
    In addition, the force evolves--as the force evolves, our 
installations increasingly house critical missions that are 
conducted entirely from home installations. One subcommittee--
one issue our subcommittee has been following for the past few 
months is the poorly managed privatized military housing 
program. If the services hope to recruit and retain the best 
candidates, they must ensure that they provide high-quality 
places for our service members and families to live.
    When barracks and dormitories fall into disrepair and 
create [substandard] living spaces for service members, it 
directly contributes to poor retention. Likewise, when the 
services fail to take care of military families, retention also 
suffers.
    This committee will continue to demand that the services 
and the Department of Defense improve their oversight of 
privatized military family housing. Until this committee is 
satisfied that all of our military families live in high-
quality homes, free from hazards to their health and their 
safety, and that they are treated with respect and dignity by 
the private partners and military housing offices, we will not 
step back. We will continue to keep a close watch over the 
privatized housing programs and hold both the military and the 
private companies accountable.
    Despite their importance, installations have all too often 
been neglected as funding has gone to other priorities. This 
year's budget requests $13.9 billion for military construction. 
This number does not include the additional $7.2 billion in 
funds that are said to be taken from military construction to 
build the border wall, and an additional $2 billion for 
disaster recovery.
    That $7.2 billion that the President wants for his border 
wall would go a very, very long ways towards getting the 
installations that have been ravaged by the hurricanes back up 
and running. And yet less than a third of the amount of money, 
that $7.2 billion, has been requested thus far for disaster 
recovery. That is a problem.
    The budget request includes $12 billion for facilities 
sustainment, restoration, and modernization. Last year, this 
committee was told that $116 billion of unfunded facility 
maintenance backlog and that 32 percent of the Department's 
facilities were in poor or failing conditions. I look forward 
to hearing what progress has been made in addressing that 
backlog in the intervening year and how this budget request 
will help address that challenge.
    The chronicle of underfunded facilities has diminished 
readiness in many, many ways. Deferral of routine, periodic 
maintenance and building upgrades ultimately increases the 
lifecycle cost of a facility.
    Further, in the last year, we learned that the old and 
undermaintained buildings failed during the Hurricanes Michael 
and Florence. They failed at a much higher rate than the well-
maintained newer buildings and therefore added millions and 
millions of dollars, if not billions of dollars, to the total 
disaster recovery cost. Maybe there is a lesson here about 
repairing your work and rebuilding your roofs on a regular 
basis.
    We have just begun to address the cost of recovering from 
these storms. During Mr. Lamborn and my recent trip to survey 
the damage at the Marine Corps Air Station Cherry Point and 
Camp Lejeune in North Carolina, I learned that $1 billion is 
needed now to supplement the fiscal year 2019 operations and 
the maintenance funds that were used to conduct immediate 
response and other near-term costs to keep these installations 
and their mission capable.
    And yet instead of reprogramming funds for disaster 
recovery, this administration decided to reprogram $1 billion 
of unused Army Corps--Army personnel money to build a border 
fence.
    The question of choices and priorities is obvious to us. Do 
we rebuild our military bases so that they can function? Do we 
rebuild the main base for the Marine Corps on the East Coast, 
or do we use our soldiers to put concertina wire along the 
southern border? A choice was made. In my view, a very, very 
bad choice.
    We are going to have to face the reality here that we are 
going to have to find money to replace critical money needed 
for infrastructure on these bases.
    So Camp Lejeune, Tyndall Air Force Base, and Offutt Air 
Force Bases are often discussed, but they are by no means the 
only installations impacted by increasingly frequent extreme 
weather caused climate--weather events that I believe are 
caused by climate change.
    It is essential for the Department of Defense to 
systematically plan for these extreme storms, for events that 
put these bases at risks from flooding and wildfires and 
droughts and earthquakes, whatever the risk happens to be, at a 
specific installation. This committee will want to know what 
the military is doing to address that particular vulnerability 
and what is the approach to build resiliency into these bases.
    So we have got many things to look at here. We have--
departmentwide, there are over 3,000 defense environmental 
restoration programs, otherwise known as cleaning up 
yesterday's mess. We find that all across the Nation. We know 
that many members of this committee are concerned about these 
problems, particularly about the problems that have been called 
by--have been caused by PFOAs [perfluorooctanoic acid], 
otherwise known as firefighting foam, that has contaminated 
drinking water and aquifers, not only on the installations, but 
sometimes on surrounding communities.
    So with that, we have our work cut out for us.
    My ranking member and good friend Doug Lamborn, the 
microphone is yours. I yield to you.
    [The prepared statement of Mr. Garamendi can be found in 
the Appendix on page 39.]

STATEMENT OF HON. DOUG LAMBORN, A REPRESENTATIVE FROM COLORADO, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Mr. Lamborn. Thank you, Mr. Chairman. And thank you for 
calling this important hearing.
    I welcome our witnesses, all familiar faces except for one, 
from our most recent hearing on military family housing 
programs. Though that hearing was less than a month ago, we 
would be glad to hear of any progress that the witnesses are 
able to share.
    Today we focus on all installation matters. While the 
broader installation portfolio hasn't achieved the notoriety of 
the housing program, it also needs improvement. Still, I am 
encouraged that all services have increased funding for 
facilities sustainment, restoration, and modernization, FSRM, 
in this year's budget request.
    However, after years of underfunding FSRM accounts, we are 
faced with a considerable backlog of critical FSRM work, with 
almost a third of DOD [Department of Defense] facilities in 
poor or failing condition. I hope that the military services 
will be able to sustain higher funding in the out-years.
    We also recognize that the Marine Corps and Air Force, in 
particular, are struggling to recover from the damage caused by 
Hurricanes Florence and Michael, as has been noted. The 
chairman and I toured Camp Lejeune and Cherry Point last month, 
and we saw firsthand the extent of the damage. We understand 
that neither service has programmed funding to address these 
challenges, and we are doing everything possible to provide the 
necessary disaster recovery funds.
    We also recognize the Department is addressing 
contamination to groundwater caused by firefighting foam 
containing perfluorinated compounds. All of us want safe 
drinking water, of course. At the same time, we also expect 
that firefighters will be able to extinguish fires quickly and 
safely.
    I encourage the Department to prioritize research into 
effective firefighting chemicals that are free from 
contaminants, and encourage you to continue working closely 
with the affected military communities to assure safe drinking 
water.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Mr. Lamborn can be found in the 
Appendix on page 41.]
    Mr. Garamendi. Thank you, Mr. Lamborn. We obviously share 
many of the same concerns.
    I think--I was going to pass this to one of our committee 
members who has not yet arrived, but I do want to get on to the 
military housing and get on the record what the Department of 
Defense has done, and then drill down with each of the services 
as to where they are with it.
    And so why don't we start with Mr. McMahon, if you could 
bring us up to date on the specific things that the Department 
has done to deal with the military housing issue.
    Secretary McMahon. Mr. Chairman, thank you very much for 
the question and the opportunity to be before you and the 
subcommittee on a variety of issues. Obviously one that is 
important to you, to the ranking member, and all of the 
members, is where we are with privatized housing.
    A reminder that that represents housing for only 30 percent 
of our military members; 70 percent are living out in the 
community. And as we have this conversation, it becomes 
tremendously important for us to underscore that, not only do 
we need to think about this 30 percent, but we need to expand 
to include the 70 percent and ensure they are taken care of as 
well.
    Since last we spoke, sir, what I would tell you is we 
continue to focus on the same lines of effort that we discussed 
previously. First and foremost, what we want to do is ensure 
that there is a unified bill of rights, that we clearly 
articulate to our family members and our military members what 
the expectations are when they come into a privatized housing.
    Where we are literally today--and we have a battle rhythm 
of meeting weekly to ensure we are taking the appropriate 
actions as an enterprise within the Department to do the things 
that we need to do--we have a draft of that bill of rights that 
we have shared with the Congress. We have gotten input from our 
privatized partners. We have gotten inputs from our MSOs 
[military service organizations] and VSOs [veterans service 
organizations], those organizations that represent both our 
military members and our veterans organizations.
    And we hope in the next 10 to 14 days of being able to 
share that draft bill of rights with our military families, 
utilizing a tool that we would push out to them, get their 
specific feedback to ensure that we have not missed anything, 
and then get that feedback back in collectively so that we can 
move forward, we will have a published bill of rights that 
clearly articulates where we are.
    So that is--that is our 2-meter target. That is the thing 
we are most focused on.
    In addition, we continue to work with our privatized 
partners and within the services and the Office of Secretary of 
Defense to clearly define what a single common lease might look 
like to ensure that not only do we talk about these elements of 
the bill of rights, but also ensure that they are incorporated 
within the lease process that we have.
    In addition, we continue to look at how we best incentivize 
the proper behavior, that is through both the proper agreements 
with our privatized members, and we are doing that service by 
service, company by company. The other part of that is ensuring 
that we have adequate oversight.
    First of all, in terms of oversight, what I would tell you 
is that each of the services have reenergized the training and 
education that their military leaders get to ensure that they 
properly understand what those roles are.
    In addition, each of the services are looking at how they 
reinvigorate their housing offices to ensure that, at the end 
of the day, that we are providing oversight there, and as part 
of that, ensuring that we have an advocate for our military 
families on the installation whose sole purpose is to represent 
what their needs and answer their questions, and feel like they 
have a voice in this process.
    It is easy for our senior members to feel comfortable with 
this, as they have lived there for many years; for a young 
Marine or soldier who is 22 or 23 years old with a 19-year-old 
spouse, much less, so we have got to make sure that this gets 
to them as much as it does to anyone else.
    Let me stop there, sir, and see if that generated any 
questions or if my partners want to add anything at this point.
    Mr. Garamendi. Let's go to your partners and see if they 
want to add anything to that, and then we will--there may be 
some questions that the committee would like to ask on this 
issue.
    Secretary Beehler. Sir, on behalf of the Army, certainly 
Mr. McMahon covered a lot of the points that certainly the Army 
has--is following up on and engaged. Just to add a few 
specifics, we are scheduled to add 114 additional hires in our 
installation housing. So far, we have hired 81 of those and 
hope to hire the remainder by the end of this month.
    We have an inspector general assessment that has been going 
on to look at all sorts of issues across the privatized housing 
aspects of the Army, including trying to ferret out any reports 
of reprisals. And that report will be completed the middle of 
May, and obviously, the Army senior leadership will be getting 
that report and the recommendations and making steps to follow 
up with that regard.
    We know that on the Army installations, the privatized 
housing partners have also agreed to hire additional staff in 
their housing portions to be more responsive. The figure I have 
seen is several hundred, and they have hired a good chunk of 
that.
    We pulled back any consideration of the quarterly incentive 
fees to the headquarters where we are reviewing the progress 
that is being made. And we are not going to, you know, make any 
decision on the incentive fees until we have thorough review of 
how the privatized partners have been doing being responsive, 
for instance, to work orders.
    In that regard, the--with working closely with the private 
companies, they--the companies have launched with their review 
and oversight web-based portals to allow residents to submit 
work orders in the most expeditious fashion and then to track 
the progress all the way through, similar to like an Uber type 
of situation, concluding with once the work order is completed, 
the opportunity of a 30-second or 1-minute survey, whether they 
received satisfaction or not and additional comments.
    This information is available to all levels, all the 
participants, meaning the residents, obviously the companies, 
the garrison commanders, and the Army headquarters. So it will 
be a very effective measure of performance and strong 
accountability.
    We also have emphasized that the chain of command is the 
supporting mechanism, one of the supporting mechanisms, that 
the soldiers and their families should turn to in case they are 
having any kind of difficulty, and this has been conveyed to 
the residents and emphasized to the garrison commanders to make 
sure that they carry the message up and down literally the 
chain of command.
    We have worked with our partners to create better metrics 
for, once again, overarching accountability. We have put 
forward an operational environmental health registry with our 
hope and our effort that will allow those residents who feel 
that they are having environment or health-related issues to be 
able to call into this registry and lodge their complaints so 
that our health service can keep track, build a database, 
provide advice on how to proceed in this regard, and more to 
come on that as that is further developed.
    We also are seriously considering a variety of advocacy for 
the residents. One that has already been in place and very 
effective out in our Army facility in Monterey is what we call 
a mayority or a mayor, somebody who is selected from the 
residents, in other words is a resident, to help residents, to 
be an effective advocate for them. And in the surveys that we 
have seen that that has worked extremely well, and so therefore 
we are seriously considering doing that across all the 49 
installations.
    So, with that, I will stop and let my service colleagues 
talk.
    Mr. Garamendi. Mr. Mellon.
    Mr. Mellon. Mr. Chairman, on behalf of the Department of 
the Navy, I am going to complement what Mr. Beehler and Mr. 
McMahon have talked about. As Mr. McMahon started this off, we 
do--we meet weekly, and part of the benefit of that, I think, 
is sharing lessons learned and being able to accelerate off of 
each other's initiatives as they move forward.
    So you may hear slightly different terminology, but they 
are often underpinned in exactly the same kinds of initiatives. 
So along those lines, the Department of the Navy has actually 
expanded the scope of what we are looking at and gone beyond 
PPV [Public Private Venture] housing. We are doing all housing 
for military and service members.
    And so for PPV for our Navy, they are 100 percent done with 
contact. The Marine Corps isn't tracking it exactly the same 
because they are tracking for all housing. They are over 99 
percent for contact. On the Navy side, they are 100 percent 
complete with their in-home visits. The Marine Corps has 
already completed over 7,400 in-home visits for all types of 
housing.
    So well on our way to getting a good hands-on understanding 
of where the residents are, where the issues are, and being 
able to correlate those into actions as we interact with our 
partners.
    One of the biggest feedback mechanisms we are getting are--
the biggest issue is the quality of the repairs they are doing. 
Sometimes it is a short-term repair, but the amount of timespan 
before they come back to execute that permanent repair is 
excessive. There has been confusion about whether it is a 
short-term repair or that is the long-term repair.
    So in an effort to try and get better clarity on that, we 
have also got weekly metrics that are provided to the base 
commanders from the partners related to all of the open issues 
from their residents, what the status of that resolution is. 
And all of that data and information, just as Mr. Beehler just 
said, is available to those residents.
    Our partners are at various stages of having electronic 
access to that data and information for the residents, whether 
it is through an app or some other means. They are at different 
points of implementation, but they are all working towards that 
same end.
    As well, we have, through our medical community, 
established a registry and a hot line that we are currently in 
process of staffing that gives all the residents a direct 
number and a direct ability to lodge specific health issues. 
But we have also built it such that it links back with any 
health records for those families or service members. So we 
have got a closed-loop system so we don't miss something by 
having something in two different mechanisms.
    Lastly, we have got two things associated with housing and 
housing personnel. We are working to try and free up as many 
resources as we can from a personnel perspective to add to base 
housing to augment that. We have added our requirement to the 
unfunded priority list for both Navy and Marine Corps in 2020.
    And then the last piece, we have got a full naval audit in 
process that is due to wrap up towards the end of May. So I 
would suspect end of May, beginning of June to have the initial 
results back from the audit, predominantly focused on work 
orders, work orders processing, and the business approach for 
how all that is incentivized and do we need to do some things 
from that perspective.
    And with that, I will turn it over to the Air Force.
    Mr. Garamendi. Thank you.
    Mr. Henderson.
    Secretary Henderson. Thank you, Mr. Chairman.
    First of all, I espouse the comments of my service 
colleagues here since we are working together on a lot of these 
things with--as the services and with our project owners since 
we share a lot of the same project owners also. And that is 
essentially to provide those--in those areas where we should 
provide a consistent service to our residents.
    I will just highlight a couple things that the Air Force is 
doing differently. First of all, in addition to what was--has 
just been mentioned, we are also doing an audit for our 
resident energy conservation program to ensure that the billing 
and the metering is being done correctly there. We had a few 
indicators that--we have some anomalies there, so we are going 
to go back and just check and make sure that we are in good 
stead there.
    We have also--since the last time we talked, we have 
completed our inspector general assessment. Most of those 
findings were internal to the Air Force in how we internally do 
business and pass information through the chain of command and 
are linked in with housing, and then we are implementing those 
findings now. We have taken the time to back-brief the 
professional staff members of the committees on that.
    Additionally, we are still continuing to work along 5 lines 
of effort through 25 objectives and literally hundreds of tasks 
now that we have incorporated those IG [inspector general] 
findings in there. We have completed 3,100 fixes of the 4,700 
deficiencies we found during our commanders' walkthroughs.
    And we are in the process of linking in our medical 
community to ensure that any health issues that are addressed 
in our housing, any housing or any of our facilities, if it 
is--that it is--if it is linked to the facility in any way, 
that the medical community is linked into that.
    And then finally, I would just mention that we are getting 
after the personnel piece of this also. We have the unfunded 
request in to ensure that we can--for fiscal year 2020 to fund 
advocates and augmented personnel and manning in our housing 
management offices.
    Secretary McMahon. Mr. Chairman, I neglected in one item, 
if I could, to add to this conversation, which I think is 
worthy of mention.
    Mr. Garamendi. Certainly. Go ahead.
    Secretary McMahon. And that is one of the gaps that we saw 
early on in this relationship is a lack of understanding, in 
some cases, of where our medical providers ought to go and how 
they ought to engage if a family came and said, I believe my 
child may have been exposed to lead, as an example.
    And so we have created an integrated product team between 
my staff and the Department of Defense health providers to 
ensure that we can reeducate, and have clearly articulated to 
our health providers what it is that they ought to do, where 
they ought to engage, if, in fact, this type of issue is 
identified, to make sure that no one falls through the cracks 
or even perceives to have fallen through the cracks.
    Thank you, sir, for allowing me to add that.
    Mr. Garamendi. Thank you.
    As I promised in our previous hearings, we are going to 
keep coming back to this. I am pleased that you are making 
progress on all of the issues.
    I didn't hear you mention two that were on our mind here, 
one is the lease that is signed by the family and the 
appropriateness of that lease, at least compared to various 
State laws and city and county laws with regard to tenant 
leases. I don't want to go into it here, but I want to make 
sure that that is under review.
    And finally, the contract itself between the Department of 
Defense and the various private providers. I understand those 
contracts have been requested, that they are under review by 
the legal teams within the Department. We want to make sure 
that they are a well-balanced contract going forward.
    And with that, I am going to ask if----
    Yes, Mr. Lamborn, I know you have some comments on this, 
so, please.
    Mr. Lamborn. Well, thank you.
    Before we go on to other questions and issues, just a 
clarification on the housing issue. Mr. Mellon, I think I heard 
you say that the Navy is conducting 7,400 housing visits? And 
you are working on the results of that, or is that a work in 
progress, or do you have that--those results?
    Mr. Mellon. No, sir. So as a result of the contacts, so the 
100 percent contact, as part of that, members--service members 
were offered to have the command and the PPV provider visit 
their house to actually look at whatever the condition or issue 
was. Of the people that we contacted, 7,400-ish requested 
visits.
    Mr. Lamborn. Okay.
    Mr. Mellon. All I am saying is those visits have been 
accomplished. The issues are documented and currently being 
rectified and remediated in terms of whatever the issue was. I 
was just trying to say that for those that have asked for 
visits from the command, those command visits are actually 
occurring.
    Mr. Lamborn. Okay. Do you have metrics, quantifiable 
results that you can provide this committee on how----
    Mr. Mellon. Yes, sir, I can take that--I don't have that 
data right in front of me, but I will take that for the record.
    [The information referred to was not available at the time 
of printing.]
    Mr. Lamborn. We would love to see that.
    Mr. Mellon. Yes, sir.
    Mr. Lamborn. And then for the Air Force, Mr. Henderson, you 
said 3,100 out of 4,700 work orders have been addressed. Did I 
hear that correctly?
    Secretary Henderson. That is correct. Those were the work 
orders that were generated from our commanders' visits. We are 
following up on each one of those. We are micromanaging that, 
so to speak.
    The other 1,300 that are left--or sorry, I think it is 
about 1,300 that are left, those are either material issues. We 
have a plan for them, but if it has to do with replacing a roof 
or something that has more of a long-term item, we are keeping 
those on the tracking mechanism.
    Mr. Lamborn. Okay. And if you could give us a more defined 
report on the status of that as you wrap that up, we would sure 
appreciate that also.
    Secretary Henderson. Absolutely.
    Mr. Lamborn. Thank you. That is all I had at this time, Mr. 
Chairman.
    Mr. Garamendi. Thank you, Mr. Lamborn.
    I am going to do something a little different here than the 
normal order of business. I know that there is a lot of concern 
among the members of the committee about this particular issue. 
And since we are on it, let's stay on it. And so I am going to 
let us--each of the members, if they have a single question 
that they would like to put forth, it can be a long question, 
and let's see if we can get this issue out there.
    [Cell phone ringing.]
    Mr. Garamendi. Ah, yes, does anybody need their credit card 
squared away? Could you turn that thing off?
    You know, Mr. Lamborn, if we don't do anything else, we 
have got to do something about all these sales calls that we 
get.
    Ms. Slotkin. I have a bill.
    Mr. Garamendi. You have a bill? Thank God you have got a 
bill. Leave it to the freshmen to solve a problem.
    So if you have--let's stay on this housing, offering all 
the members. We will start--I see we have one on our side. I am 
going to go down by the seniority around, and if you have a 
question, let's get it out there. And--or if you have an issue 
and you want to put it on the table, now is your chance to do 
it.
    Mr. Lamborn. And then after that we will address other 
issues?
    Mr. Garamendi. Yeah. I will go back and forth. I do want to 
get to the other issues. There is a whole host of them.
    We will start here and then I will go back and forth by 
order of seniority.
    Okay. Austin.
    Mr. Scott. Mr. Chairman, you have already brought this up. 
I again want to just bring forward the language in the lease. 
It is not a square deal for our military families to suggest 
that they should pay the legal fees of a huge corporation if 
arbitration or mediation does not go in favor of the military 
family, and that is a key issue for me in making sure that we 
resolve that. So it is a square deal and a fair fight, if you 
will, for our military families.
    Secretary McMahon. Congressman Scott, we acknowledge that, 
we concur, and part of this is to get to a position that we 
won't have to go to mediation, and that if we do so, we can do 
it in a way that does not drive a cost to the member.
    Mr. Garamendi. Okay. Ms. Escobar.
    Oh, Ms. Horn.
    Ms. Horn. I just want to echo my colleague from Alabama's 
sentiments about that and----
    Mr. Scott. Georgia.
    Ms. Horn. Georgia? God, sorry. I am so sorry. I am so 
sorry.
    Mr. Brooks. You promoted him.
    Ms. Horn. Okay. Now I am never going to live that down. I 
will come visit in Georgia. Good bipartisanship, right. 
Georgia. I apologize.
    So now I am going to, you know--so a couple of things. When 
I was back over the course of the recess period, we met with 
some of the families and the concerns about not only the lease 
provisions, but also what was going to be available to them, 
the remedies in the tenant's bill of rights and I think that 
lease provision and the provisions in there.
    I would like to hear what top-line provisions that you are 
going to--that you are working on to ensure that the 
individuals are--that our military members, our service members 
are being protected, as well as the followup, which I think you 
have already addressed.
    Secretary McMahon. Congresswoman, if I could go to our 
draft bill of rights, and rather than articulate, I will simply 
read what I think is getting at the heart of the matter of 
where we are in the draft right now.
    And that is, right now, as it states, resolution in favor 
of the resident may include a reduction in rent or an amount to 
be reimbursed or credited to the resident. And that is to 
ensure that, as in any situation where you are improperly 
treated, that there is some sort of remediation to you 
financially that you can show that we are looking forward--
looking to you that we have given you something for the pain 
that you have endured. If that--ma'am, does that get to your 
question?
    Ms. Horn. I think it does. I just wanted to get the top 
line, but I think--I met with a number of families that are 
still experiencing discomfort about the way that everything is 
progressing, and I think that this will help, but also the 
provisions in the lease. I would be happy to talk to you about 
that more.
    But I think the protections, putting those in place, and 
also hearing from the base commanders about the need, and I 
know this is something we will be addressing, for sufficient 
personnel to do the oversight of these companies.
    Secretary McMahon. And I think we all feel very strongly 
that we want to be able to get the draft bill of rights out to 
our military families who are living on base so they understand 
exactly what we are attempting to do and they have the 
opportunity to comment on that. And that is important to all of 
us, and the goal is to do that sooner rather than later.
    Mr. Garamendi. Keeping in mind that we have many, many 
other things to go forward with, I want to give each member an 
opportunity to ask a question, be as quick as you can.
    Mr. Brooks, you are up next.
    Mr. Brooks. No questions.
    Mr. Garamendi. Pass?
    Ms. Escobar.
    Ms. Escobar. On this subject or any subject?
    Mr. Garamendi. Housing. If we could stay on housing here.
    Down the line? Looks like Ms. Haaland.
    Crow.
    Mr. Crow. I had something.
    Mr. Garamendi. Oh, sorry, Ms. Haaland. Mr. Crow has a 
question.
    Mr. Crow. Thank you, Mr. Chairman.
    You know, I know with the housing issues and dealing with a 
contractor, sometimes one of the most difficult things is 
actually just taking time off of work to meet people for 
inspections, to meet contractors. You know, my wife and I both 
work, and that is a very hard thing coordinating our schedules 
sometimes.
    So what are you doing to ensure that the service member is 
being given proper time off of his or her duties to make sure 
they are present during the commanders' inspections, that they 
are able to meet contractors, and support his or her spouse 
during these visits?
    Mr. Mellon. I will go ahead, and I will start from a Navy 
perspective. All of the visits right now are at the timetable 
and schedule of the resident. So whether it is a home 
inspection, whether it is a move-in inspection, whether it is a 
maintenance event that needs to occur, regardless of what 
that--whatever that is, it is being driven by the resident.
    From a getting off of not having to report for duty and 
those kinds of activities, that is being coordinated with their 
command structure to ensure that the appropriate actions are 
being taken and that they are being given the appropriate 
time----
    Mr. Crow. I guess my question--I will just push back a 
little bit on that. I guess my question is a little bit 
different. I understand coordination with the command 
structure, but I think we all could agree that in practice that 
is hard, right.
    And so does that, A, include--you know, at the convenience 
of the resident, does that include evening and weekend times? 
Are we opening up kind of off-duty hours, evening and weekend 
times to make that available so it is at the convenience of the 
residents?
    Mr. Mellon. Again, I think it varies, I would say right 
now, between our partners, PPV partners and whatever constructs 
they have with their contractors that perform those maintenance 
functions. I would say from a management and leadership 
perspective, I absolutely believe we are accommodating evening 
and weekend visits, both from a command structure and from a 
partnership perspective.
    I think the remediation of specific maintenance events may 
be an issue by issue, and it may have a lot to do with whatever 
that subcontractor's agreement is with that partnership. Those 
are all some of the things we are looking at as we are 
revisiting both the agreements between the government and the 
partnership, as well as the standard lease that is in work 
across the Department.
    Secretary Beehler. And from the Army standpoint, I think it 
is pretty much the same. I would only add that the--having this 
web-based portal app really is helping as far as scheduling of 
times that are appropriate and convenient for the residents.
    Mr. Crow. I would just submit, and then I will allow others 
to move on here, but I would like to see a public display of 
priority by the command structure, so working with your 
respective service chiefs. Maybe that takes the form of a 
letter or a directive or otherwise to garrison commanders and 
the unit commanders very clearly saying this is a priority of 
the service and that commanders should make every effort they 
can to ensure that their service members under their command 
can take the time available to meet this need.
    Secretary McMahon. Congressman, let me take that for the 
record and take it and I owe you some feedback. We collectively 
would move forward in being able to implement. I understand the 
intent of what you are getting to. We can partner with our 
private partners, but let us get back to you and tell you how 
we attack it.
    [The information referred to was not available at the time 
of printing.]
    Mr. Crow. Thank you.
    Secretary McMahon. Yes, sir.
    Mr. Garamendi. Mr. Crow, if I might just add here, this 
problem can only be solved if the installation commander is 
held accountable.
    Ms. Haaland, you had a--it is your turn if you have a 
question.
    Ms. Haaland. Thank you, Chairman.
    Good afternoon, and thank you all so much for being here 
today.
    Assistant Secretary Henderson, I understand that the Air 
Force has submitted $31 million unfunded requirement [UFR] to 
add 250 personnel to its housing management offices. While I am 
pleased that the Air Force is taking step to ensure appropriate 
staffing to meet the needs of our military families, I am 
disappointed that it is coming as a UFR, especially given the 
well-documented need for these personnel to help address the 
issues that we have all been talking about, the substandard 
conditions of military housing.
    Are there any other UFRs regarding military housing? And 
can you explain why it wasn't included in the President's 
budget request when so many other things were, like money for a 
wall, for example?
    Secretary Henderson. Ma'am, there is no other UFRs. That 
was the only one we submitted with regard to housing. And then 
just some background on it, we kind of know what we needed in 
the housing offices because it was just 4 or 5 years ago during 
sequestration when we were forced into some pretty deep 
personnel cuts that we pulled those folks out of the housing 
management offices.
    They did that as--the Air Force did that as a calculated 
risk on the auspices that the project owners could take over 
some of those responsibilities for oversight and overseeing 
their maintenance, a bigger role in quality assurance, and the 
agreements allowed us to do that.
    And I think upon reflection and going around and taking a 
look at that, those cuts were ill advised. So we decided to 
essentially restore personnel that we always had in those 
offices, and we kind of knew how many it would take to get back 
to where we were.
    So no other UFRs. And then the history of that was it was 
one of the cuts we took during sequestration that we are 
restoring now.
    Ms. Haaland. So in the future, you will fight to make sure 
that those--that that is put in the actual budget and not 
necessarily an unfunded requirement?
    Secretary Henderson. Absolutely. We are actually changing 
the permanent organization structure to make that a permanent 
part of the CE [civil engineering] squadrons there so that 
those become permanent positions in the Air Force.
    Ms. Haaland. Thank you.
    And I yield back, Chairman.
    Mr. Garamendi. Thank you, Ms. Haaland.
    A couple of things. Mr. Lamborn and I both immediately 
jumped into the housing, or I jumped into the housing and he 
joined me in jumping into the housing. We went right past the 
opening statements. I don't really want to go back to those 
opening statements. I do want to seek unanimous consent that 
the opening statements be put into the record and then we will 
move forward with the issues.
    [The prepared statements of Secretary McMahon, Secretary 
Beehler, Mr. Mellon, and Secretary Henderson can be found in 
the Appendix beginning on page 42.]
    Mr. Garamendi. I would urge each of the committee members 
to quickly thumb through, find your favorite issue, because you 
are about to be asked for your 5-minute opportunity for 
questions. I am going to start with Mr. Lamborn while I quickly 
thumb through.
    Mr. Lamborn. Sure. Sure.
    Let me ask you first about--on the Air Force side, Mr. 
Henderson, if we can get the disaster relief funding that is so 
vital to restore Tyndall Air Force Base, will the Air Force be 
in a position to restore funds to the FSRM projects that were 
canceled or postponed earlier this year?
    Secretary Henderson. Yes, sir.
    Mr. Lamborn. Okay. Good. Okay. That is a nice, short, 
quick--good, and I like that.
    Secretary Henderson. That is our intent.
    Mr. Lamborn. And I like that.
    Okay. And then for all the witnesses, what are you doing to 
address the problem of PFOAs and PFAS [per- and polyfluoroalkyl 
substances] in groundwater at installations? I know in my 
congressional district cities of Fountain, Security and 
Widefield have great concerns about this. So any one of you 
that could address this, I would appreciate it.
    Secretary McMahon. Congressman, if I could start from the 
OSD [Office of the Secretary of Defense] level. First of all, 
this is an issue that has clear focus, starting with the Acting 
Secretary through the entire organization.
    Our focus has been where the Department of Defense has been 
culpable for causing water to be contaminated, and that is 
drinking water to be contaminated, that the Department has 
responded, and I can tell you today that there is no one 
drinking contaminated water above the 70 parts per trillion 
where the Department of Defense had been the causal factor for 
that water.
    Once that mitigation has taken place, and there is a 
variety of different ways that we have done that, then we 
follow the standard process outlined in statute and by the 
Environmental Protection Agency [EPA]. The CERCLA 
[Comprehensive Environmental Response, Compensation, and 
Liability Act] process defined a longstanding solution to 
ensure that we can mitigate the challenges that are out there.
    And so let me address upfront one of the conversations. 
There has been tremendous discussion in the media about this 
idea that the Department of Defense was trying to drive to a 
different standard than what the EPA was asking for. I will 
tell you categorically that the Department of Defense has not 
been. We have been in discussions about process. We have been 
in discussions about how we best follow the guidance that the 
EPA has put out there and what that guidance looks like in 
terms of CERCLA, and that how that would apply to groundwater 
vice drinking water.
    But the Department of Defense strongly supports the 70 
parts per trillion for drinking water, and it is doing whatever 
it can to ensure that where we are culpable for the impact on 
human beings, that we have mitigated that and we have a viable 
process for cleanup following CERCLA.
    Mr. Lamborn. Although isn't it true that EPA is still 
working on a final number?
    Secretary McMahon. Yes, sir. They are looking--they are--
the discussions that you have seen over the last probably week 
or so has been focused on a trigger for groundwater vice 
drinking water. We have had some differing opinions on that. We 
fully support the fact that EPA has put that language out for 
public comment. We continue to work with the EPA on that, but 
the specific--specificity of what has gotten the visibility of 
recent has been a discussion on groundwater levels vice 
drinking water levels.
    Mr. Lamborn. Okay. Whoever else could address that, I would 
appreciate it.
    Secretary Beehler. Sir, from the standpoint of the Army, we 
have spent $20 million over the past several years monitoring 
and investigating to see where the presence of PFAS and PFOA is 
on all of our bases. We have come up with 13. We have taken 
remedies, as Mr. McMahon just said, to make sure that anybody 
concerned or affected is not drinking PFAS, PFOA water that--
water containing 70 parts per trillion or more.
    We also are engaging in regular followup monitoring, and in 
those areas where we have found a problem, as Mr. McMahon said, 
we are following the CERCLA process and taking appropriate 
remedial action as that process goes forward.
    Mr. Mellon. So from a Navy perspective, we have got about 
$10 million planned in the budget associated with AFFF [aqueous 
film forming foam]. It is the primary cause for PFAS as it 
relates to fires and fire extinguishing. That is to look at 
both alternatives to that and look for those things that can be 
as robust in terms of their capability to extinguish a fire 
quickly.
    Standards for Navy are pretty high. It gets pretty tight on 
the ships. It is pretty dramatic consequences. So the speed at 
which it can extinguish a fire is a critical piece related to 
its capability.
    Along with that, we continue to look at different levels of 
mixture for the specific chemicals that generate that 
condition. And we are starting to roll those back in terms of 
percentage of mixture so we are putting less out.
    Along with that are the operational concepts associated 
with how we are even using AFFF today. We only use it in the 
instance of real fires where those fires and fire conditions 
require the use of AFFF. We don't use it in training. We don't 
use it in any other instances. And when we do use it in the 
case of a real fire, that site is then treated as a HAZMAT 
[hazardous materials] site and is cleaned up at that time as a 
result of that.
    Mr. Lamborn. Thank you.
    And Mr. Henderson.
    Secretary Henderson. Yes, sir. So, again, I would like to 
espouse the comments of my service counterparts, but a couple 
key points for the Air Force and then a couple of key points 
nationally.
    First of all, this is more than just a Department of 
Defense problem. This is a national problem for which the 
Department of Defense has been leading forward on. And I would 
submit that--to this committee that they are just going to 
require a whole-of-government approach from the interagency 
with assistance from Congress and the administration to get 
after this.
    From an Air Force perspective and specifically in Colorado 
Springs, where I know we have spent a lot of time addressing 
the issues in that area around Peterson Air Force Base, first 
of all, we have spent about $300 million on remediation of PFAS 
and PFOA over the last few years. In this year's budget, we 
have asked for $303 million for environmental restoration 
alone. That is a 7.5 percent increase.
    Like the other services, we use the CERCLA process, which 
takes on average about 8 years to get through that process. So 
it is slower than we would all like, but it is also the 
mechanism and the tool that we can use, the authority that we 
can use to spend money for this.
    In the Air Force, we are using three lines of effort to do 
this. The first one is to protect human health, and this is the 
identify, respond, and prevent stuff that we do out at the 
bases every day to capture the extent of the problem, ensure 
that we understand the full extent of damages to the ecosystem, 
break the chain for any impacts to human health, and then put a 
long-term solution in to fix that.
    The second line of effort is to ensure that we are 
communicating transparently with the State and local regulatory 
authorities and the stakeholders and the restoration advisory 
boards. We found in the case--in the act of trying to do a 
right thing, if this communication link is broken, we still 
risk losing the trust of the local community we are in. So we 
see this as an absolutely important link.
    And then third is the work that we have to do here in DC to 
get the--to work on the whole-of-government approach, and that 
is working across the different services and with the Office of 
Secretary of Defense, along with the EPA, Department of 
Agriculture, Health and Human Services, on a lot of the other 
initiatives that we don't have the authority to do but do 
require Federal Government assistance. That is kind of where 
the Air Force is at on PFAS and PFOA, sir.
    Mr. Lamborn. Okay. Thank you all for your answers.
    And, Mr. Chairman, I yield back.
    Mr. Garamendi. Let's move along here. I am going to skip my 
questions, and I will come back towards the end of it.
    The next, Ms. Escobar is up next. We will pick her up when 
she comes back.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    I want to join you too in expressing sympathy to the family 
of the late Congresswoman Ellen Tauscher. She was a devoted 
member of this committee and just a fine person that we all had 
the opportunity to work with. So I want to extend my sympathy.
    And, Mr. McMahon, I am grateful for the relationship 
between the U.S. and our European allies. In the Army Corps of 
Engineers, it is--they are currently building a world-class 
military hospital, the Rhine Ordnance Barracks Army Medical 
Center near Kaiserslautern, Germany, which we are really 
grateful is the sister city of Columbia, South Carolina, that I 
have the opportunity to represent substantial portions of the 
community.
    How is the Department of Defense mitigating the use of 
Russian energy sources? Is there a concern about adversaries 
using this to weaponize energy supplies?
    Secretary McMahon. Congressman, as you are aware, as you 
look at the National Defense Strategy, we voice great concern 
about both Russia and China and its impact in a variety of 
ways, both militarily but also economically.
    Clearly, there is a concern about the reliance on our 
partners and our allies on fuel from Russia. Unfortunately, we 
don't have the ability to drive what fuel a private entity 
outside the United States, where they source that fuel from. 
However, what we can do is ensure that for our installations, 
both in the United States as well as those overseas, is that we 
consider resilience of those installations and that we come up 
with solutions that say, not only for, for example, climate or 
weather or cyber, but also for energy, how is it that we can 
come off the grid to ensure that those type of installations 
can continue.
    Mr. Wilson. And in line with that, Mr. McMahon, in the 2019 
National Defense Authorization Act, there was a direction to 
the Department of Defense and Department of Energy to develop a 
pilot program for micro reactors. The Defense Science Board 
Task Force issued a report recommending the logistics demand by 
the U.S. military be scaled down. And is a pilot program on 
track to power critical loads at a permanent domestic military 
installations by December 2027? What is the status of any 
prototypes?
    Secretary McMahon. Congressman, thank you very much for 
that question. There is a tremendous focus on that, not only 
within the Department, but at the National Security Agency 
level--or National Security Council level. I am personally 
involved in that.
    And we have really a twofold way forward on that issue. The 
first is that we are looking in conjunction with our national 
labs of creating a capability to leverage whereby the 
commercial sector would develop the small modular reactor, be 
able to take that and put it at remote locations, for example, 
and then we would leverage that as a source of power for those 
installations.
    The other part is looking at the micro level as to how we 
could on a much smaller vehicle be able to create that 
capability. Our research and engineering folks are focused on 
that. The first effort, which is the one driven by the 2019 
NDAA [National Defense Authorization Act], we feel strongly 
that we will be able to beat that 2027 date.
    In addition, the second effort, which is a smaller, perhaps 
vehicle-borne type that we could apply anywhere, we are in the 
midst right now, literally last week, of releasing a request 
for information for partnering with the private sector to see 
where we can go with this and what the art of the possible is, 
and we will continue to keep you updated on both efforts as we 
move forward with it.
    Mr. Wilson. Well, that is terrific. And Congressman 
Garamendi and I both are keenly interested in modular and micro 
reactors.
    And, Mr. Mellon, the Department is still working on plans 
to relocate 5,000 Marines from Okinawa to Guam. What is the 
status of the construction activities to support the move to 
Andersen Air Force Base and Apra Harbor? Do you anticipate both 
installations being capable of supporting the additional 
personnel and equipment?
    Mr. Mellon. So all of our construction projects associated 
with DPRI [Defense Policy Review Initiative] and the movement 
of the Marines from Okinawa to Guam and to Hawaii are on track. 
They are continuing to progress on schedule, and we anticipate 
them being ready to catch those Marines when they come ashore.
    Additionally, Japan has recently gotten their portion of 
their projects through their Diet, so their budget is approved 
for this year. So the complement piece of that that comes from 
the Japan contingent is also funded. So all of those projects 
are on track.
    Mr. Wilson. Congratulations.
    Thank you very much, Mr. Chairman.
    Mr. Garamendi. Thank you, Mr. Wilson.
    It is your turn.
    Ms. Slotkin. Thanks for being here, everyone.
    Mr. Henderson, you were in Michigan--I am from Michigan. 
You were in Michigan, I think, last week or a week or two ago 
up at Oscoda Air Force Base seeing and talking to residents. 
Can you just tell me your takeaways from the trip?
    Secretary Henderson. Yes, ma'am. You know, first of all, my 
takeaway is there is a lot of frustration on how slow this 
process is. There is extensive contamination up there and it 
has taken a lot of time to get through the site inspection. And 
as we go through that iterative process, we learn more and then 
we realize we have to take more tests and expand the site 
inspection.
    The good news is, is in 2015 we brought in--we brought on a 
pump-and-treat facility there near--I forget the name of the 
marsh there on the site, but since 2015 we have been able to 
remove about 90 percent of the PFAS and PFOA from that plume.
    Last August we also opened up a second pump-and-treat 
facility as an interim measure under CERCLA, and this August we 
will open up a third pump-and-treat facility as an interim 
measure under CERCLA. So while we are 4 years into the CERCLA 
process and we are just getting ready to move into the remedial 
investigation phase, there has been a lot done, and clearly 
there at Wurtsmith there is a lot left to do.
    Ms. Slotkin. Yeah. I think--I don't know if you saw the 
press reporting from your trip on the Michigan side, but there 
was a lot of concern that you referenced the CERCLA process 
over and over again, which we understand is something that you 
live with.
    Is there any precedent for speeding up the process or 
anything that Congress can do to turn what feels like a 
decades-long answer to the residents who literally are scared 
to drink their water?
    Secretary Henderson. So first of all, I wish there was 
something we could all do to speed that up. Reference to the 
drinking water, when we did do--when we did all the drinking 
water test, we found that nobody on the base was drinking any 
water with PFAS and PFOA.
    And when we checked all the base's off wells, we only found 
one off-base residential well, and we are providing alternate 
water for that. So while we are going through this process, 
there is nobody that is drinking contaminated water--at risk of 
drinking contaminated water. So as----
    Ms. Slotkin. But just to be clear, I am sorry, my staff 
member is from--literally her grandma ran the kitchens on that 
base. They are terrified to drink their water. Many of them are 
paying for their own water, like our residents in Flint are, 
and they can't sell their homes at a decent price. So they may 
not physically be drinking the water, but they are living in a 
situation where they feel they are because they don't have a 
clear answer and economically are paying the price for it.
    Secretary Henderson. Right. I understand their concern, and 
we share that concern.
    As far as speeding up the process, a lot of this kind of 
relies on the how fast we can do the testing, how fast we can 
drill boreholes, how fast we can understand what the extent of 
the plume is. So some of this is just constrained by the laws 
of physics and how quickly we can fully understand the problem.
    While it takes some time to get it--to figure that out and 
to identify the full extent of the problems, it is an important 
step for us so that we have the right solution in place. The 
last thing we would want to do is spend 6 or 8 years going 
through the CERCLA process and identify a solution to only find 
out 20 years from now we got it wrong and we wasted tens of 
millions of dollars and not address the long-term solution for 
this.
    Ms. Slotkin. Yeah.
    Secretary Henderson. So CERCLA requires us to do that, but 
that is what takes most of the time. It is really the 
engineering and the environmental science that goes into that. 
And it is an unnecessary--I mean, it is an unfortunate 
requirement. It is part of the----
    Ms. Slotkin. Yeah.
    Secretary Henderson [continuing]. Part of the profession to 
get it right.
    Ms. Slotkin. Well, I do appreciate you coming and taking an 
hour's worth of questions from our residents.
    I was interested, Mr. McMahon, in your saying that it was 
an erroneous report in the media that the Department of Defense 
had pressured the EPA to lower the standards just this past 
week for cleaning up groundwater pollution caused by PFAS. My 
understanding is the proposed standards completely eliminate a 
section on responding to immediate threats posed by hazardous 
waste sites and instead focuses entirely on long-term 
solutions. I am glad to hear that it is erroneous.
    Can I just have on record from all four of you, did you 
recommend the lowering of standards and the exclusion of 
responding to immediate threats posed by hazardous waste sites? 
Can I just have you all on the record, please?
    Secretary McMahon. Congresswoman, what I will tell you 
categorically, we did not attempt--the Department of Defense 
did not try to lower the standard. What we articulated was 
following the CERCLA process that has been alluded to and 
utilizing long-standing statutes and guidance that the EPA 
itself has released in terms of determining what levels of 
PFAS/PFOA should be in groundwater.
    And, again, you have my assurance that we did not try to 
impact either the drinking water or anything but what was the 
standard process for groundwater.
    Secretary Beehler. On behalf of the Army, I have had 
absolutely no discussions with anybody regarding EPA regarding 
this issue, and I don't intend to.
    Mr. Mellon. From my perspective in the Department of the 
Navy, we have not pushed back or had any dialogue, other than 
to understand the rationale behind the EPA's recommendation. We 
are firmly behind the scientific and logical approach laid out 
in the CERCLA process, and it is ultimately the EPA's call in 
order to set what those standards are. Once those are done, 
Department of the Navy is fully on board with remediation and 
understanding.
    Secretary Henderson. On behalf of the Air Force, we haven't 
had any discussions with the EPA on this topic.
    Ms. Slotkin. Thank you very much. I yield back.
    Mr. Garamendi. Thank you, Ms. Slotkin.
    Before we leave this contamination issue, Mr. Mellon, you 
said that presently, the U.S. Navy does not use any of this 
material in training programs. There are two other--well, 
actually, yeah, two other services up there. Do you use this 
material in training programs?
    Secretary Beehler. On behalf of the Army, no, we do not.
    Secretary Henderson. On behalf of the Air Force, we stopped 
using it for training. We only use the foam now for incidents 
where we needed to put out a fire, and then we treat it like a 
hazardous waste and clean it up right away.
    Secretary McMahon. And, Mr. Chairman, the other element 
that I would add to that, that Mr. Mellon referenced in 
treating areas as a special type of spill, if we have got that, 
all of the services are doing exactly the same thing.
    Mr. Garamendi. Thank you.
    Mr. Kim, you are next.
    Mr. Kim. Thank you for taking the time to come out here 
today. I wanted to ask about something that I have been 
learning more and more about as I have been focused in on the 
response to what happened in Tyndall Air Force Base. Something 
that came up over and over again was how just in the lead-up to 
that, in the couple months before, there were at least, I 
think, two hurricane exercises that took place there. And it 
seems like from what I have heard, that that played a really 
big role in saving lives. The planning and the exercises were 
critically important.
    And this is something I think about a lot, because the 
joint base in my district, McGuire-Dix-Lakehurst, after 
Superstorm Sandy, that base was up and running 24 hours after 
that storm and allowed it to be sort of the base of FEMA 
[Federal Emergency Management Agency] operations for, you know, 
responding to a big chunk of the Northeast.
    So I guess I wanted to hear from you, from each of you, 
about your respective installations just, you know, what 
protocols are there to be able to make sure that there are 
these types of exercises and plans, especially as we are just, 
what, about a month out from hurricane season starting up? I am 
just interested in understanding, you know, what protocols are 
put in place, you know, which installations are required to do 
these types of exercises and trainings, just to kind of make 
sure that we are all set as we are entering the hurricane 
season. So if you don't mind, I would love to just hear briefly 
from each of you.
    Secretary Beehler. Sir, I will start first. The Army is 
engaging in a variety of approaches at the installation level 
to counter emergencies of all type, and particularly unexpected 
emergency, whether they are weather, climate, cyber, whatever, 
natural causes, man-made causes. So some of the examples have 
been energy-resilient exercise that the Army has done now, some 
of them with OSD funding, using Lincoln Labs MIT [Massachusetts 
Institute of Technology] experts to help in this, to lead in 
this exercise. It has been done at Fort Stewart, Fort Greely, 
Fort Knox, which actually used Army money to do it, and then 
most recently, last week at Fort Bragg, where the entire 
facility was unplugged from the grid as if everything went 
down, which it really did do, and remained unplugged basically 
for 12 hours.
    And this will have more results obviously as they examine 
the consequences, but it was--these have been excellent 
exercises. They cost roughly, depending on the size--and, of 
course, Fort Bragg's the largest military--the Army's 
installation. It is the equivalent of a city of 250,000 people. 
But these exercises run about $250- to $500,000, and just in my 
limited experience, I think they are worth every penny of it to 
get base commanders on up and on down prepared for 
unanticipated disasters, whether they are hurricanes or other 
aspects.
    On a broader--and so we will encourage, and we are already 
thinking of where the next major installation would be doing 
this exercise, and the Army is certainly willing to fund some 
of these going forward.
    The other thing, just quickly, we have installation 
management and water plans that we are requiring our major 
installations to put forth. We have 22 scheduled to be 
completed by the end of this fiscal year. And part of that 
whole exercise is to address the issue that you have raised, 
what will the installation do in an emergency situation? How 
will this affect the access to energy and water that would be 
so vital to keep that particular base resilient through the 
times of crisis.
    Finally, we are in a process in my office of putting forth 
a revised directive that will give the garrison commanders 
greater flexibility in setting the requirements for the given 
base on how much energy resilience there needs to be in place 
in case such an emergency or disaster occurs. And we hope to 
have that through the system very soon.
    Mr. Mellon. So what I would add to Mr. Beehler's comments, 
from a Department of the Navy perspective is, first, the kinds 
of drills and exercises and training he mentioned related to 
the people aspect of things, like hurricanes and HURREXes 
[hurricane exercises], at least from a Department of the Navy 
perspective, I am confident for the other services, are part of 
the normal command structure, normal command requirements to do 
them on a periodicity. It includes many things beyond that. It 
includes active shooter and all those aspects. So that is, I 
think, inculcated from a culture and command perspective.
    Beyond what Mr. Beehler said, related to other attributes 
for plans at a base level, plans from a command perspective, we 
are starting to incorporate much more stringently resiliency 
from a design perspective, not just from individual MILCON 
[military construction] projects or individual modernization 
projects, but from an infrastructure perspective.
    So the Marine Corps has recently put microgrid in place at 
Yuma, Arizona. So that has been up and running now for about a 
year, and we have got some results from that from last year in 
terms of things it mitigated in terms of power outages for that 
region.
    As part of the budget for this year, they have got plans to 
put four more microgrids in place on other bases. So those 
kinds of things, I think, add and help mitigate some of the 
impacts of climate and climate-related activities and other 
issues that----
    Mr. Kim. Great. Thank you. We are out of time here, so I 
will yield back. But if there is anything else to add, if you 
don't mind submitting as a question for the record. Thank you. 
I yield back.
    Mr. Garamendi. Mr. Kim, I suspect Mr. Crow's going to pick 
up this issue and carry it forward, so perhaps there will be an 
answer for you.
    Mr. Crow, it is your turn.
    Mr. Crow. Thank you, Mr. Chairman.
    Yes, as the chairman indicated, an issue of growing 
importance for me is this issue of energy resilience and the 
development of microgrids, as we have seen, you know, with Fort 
Sill and others that lost some mission-critical tasks during 
some prolonged shortages. And as we have continued to look 
deeper into this issue, our vulnerabilities from cyber attack 
on the civilian infrastructure, as well as extreme weather 
events, are deeply and increasingly of concern to mine.
    So picking up on the topic of microgrids, I would love to 
hear from the rest of you on the role that you think microgrids 
will play, what is being done to expedite the development of 
those grids, in particular on the wind and solar front, and 
what are the critical tasks you see in the next 1 to 2 years 
that need to be accomplished to expedite the development of 
those grids.
    Secretary Henderson. Go ahead.
    Secretary Beehler. Congressman, I absolutely agree, 
microgrids are critical. The Army has started--obviously, there 
is always a long way to go. We have 156 installations to cover, 
of which I would say certainly a significant portion are top 
priority installations as far as their mission is concerned. 
But we have several programs that we have launched through our 
Office of Energy Initiatives, and I will put the projects that 
they have put forward in these areas. It is all about energy 
resilience. Many engage in microgrids, distributed energy. And 
I will put for the record, the summary of the projects, the 
location, their significance, for the committee.
    We also have taken advantage of the Congress' funding of 
the ERCIP [Energy Resilience and Conservation Investment] 
program that OSD administers the funding, and each of the 
services competes for it. And the six projects that the Army 
has been successful in getting funding, most--that has for 
consideration of the latest $150 million total, goes along with 
microgrids, distributed energy, battery support, combined heat 
and power; things that, once again, can place the Army in being 
resilient and in times of emergency or not even, just a regular 
course of business, can rely on these sources of power to make 
them more effective in case there are attacks in that regard.
    We have the great example of Schofield Barracks in Hawaii 
that is a multifuel project, a public-private partnership----
    Mr. Crow. Mr. Beehler, sorry to interrupt you. I do want to 
give Mr. McMahon an opportunity to address the question as 
well. Thank you.
    Secretary Beehler. Thank you.
    Secretary McMahon. Okay. What I will tell you, bouncing off 
what Mr. Beehler said, our focus has over time evolved from 
energy savings to energy resilience. And so utilization and 
microgrids are an integral part of being able to achieve that 
goal--to achieve that goal, to get to where we need to be, and 
accomplish that type of resilience in the area of energy.
    Mr. Crow. Mr. Henderson.
    Secretary Henderson. Yeah, thank you. For the Air Force, we 
have seven pilot projects going on right now to develop 
installation energy resiliency plans. We intend to franchise 
the best practices of that throughout the Air Force.
    That plan would include many types of resiliency projects 
depending on the base, the geography, the physics there. It 
does include distributed energy for sources depending on what 
works there, wind, solar, natural gas, and so on. So certainly, 
we do that. We prioritize our projects based on five 
attributes: robustness, recovery, response, resourcefulness, 
and redundancy. We call that the five Rs, but essentially, we 
are bringing that into our lexicon and using that for funding, 
for priorities, and to put these ERCIP projects online.
    Mr. Crow. Mr. Mellon, the biggest task in the next year for 
the Navy to address this issue?
    Mr. Mellon. I think the biggest task for the Navy is to 
make sure we have got a sound baseline to understand where our 
risks are installation by installation, in particular when it 
comes to a lot of those installations along the coast and what 
some of those MILCON and modernization projects will look like 
so that we accommodate those risks.
    Mr. Crow. Thank you. I yield back, Mr. Chairman.
    Mr. Garamendi. Thank you, Mr. Crow.
    As promised at our first hearing, this issue of energy 
resiliency and energy conservation will be a continuing theme 
that we will be hitting upon. I do want to compliment you 
gentlemen and your staff for your reports that are now part of 
our record. Many of these issues are covered there. We will 
come back and hit these all over again.
    Ms. Haaland, you are next.
    Ms. Haaland. Thank you, Chairman.
    I first wanted to just say that the contamination issue has 
hit home in a big way in New Mexico, and it is a huge concern 
of mine. Cannon Air Force Base near--a dairy farm near that, 
that is adjacent to the base, this man has just completely lost 
his business that he has worked all his life for. And so it is 
definitely an important issue for me, and we will likely be 
adding--you know, asking more about that.
    But I did want to address some issues with respect to 
Indian tribes and American Indian affairs. And so I will just 
put out my questions. If you can answer them, that is great. If 
you need to submit to the record, that would be fine also.
    And I will start with you, Mr. McMahon. I understand the 
Department of Defense has requested $12,227,000 for the Native 
American Land Environmental Mitigation Program, NALEMP, in 
fiscal year 2020. Is the amount sufficient to fund outstanding 
and planned remediation requests, to your knowledge?
    Secretary McMahon. Congresswoman, the answer is yes, that 
is what we have since, I think, 1996 requested. In addition, 
though, we go through this process that is an annual process. 
What we have put forward is a legislative proposal to 
institutionalize this rather than going on an annual, biannual 
basis. It is tremendously important, and what we hope to do is 
see support for institutionalizing this in a broader sense 
because of the importance of the program.
    Ms. Haaland. Thank you. And the Native American Management 
System--still to you, Mr. McMahon--the Native American 
Management System for Environmental Impacts, NAMSEI, tracks and 
maintains information on over 900 potential impacts to tribal 
lands and resources resulting from DOD activities. And there is 
a series of questions. Do you select the NALEMP-eligible sites 
from this list?
    Secretary McMahon. Congresswoman, quite frankly, I am 
beyond my knowledge----
    Ms. Haaland. Okay.
    Secretary McMahon [continuing]. On this. What I would like 
to take is all those questions for the record and make sure 
that we provide you a clear answer with my experts.
    Ms. Haaland. Absolutely. So I have two more questions along 
those lines, so I will submit these to the record. Thank you.
    Secretary McMahon. Yes, ma'am.
    Ms. Haaland. The second question is, when developing MILCON 
projects, at what point in the process do you investigate 
whether a given project may impact Indian tribes? And at what 
point do you engage in tribal consultation? That is an 
important thing, of course, so----
    Secretary McMahon. In each of those, if I could take them 
for the record and explain clearly where we are in that 
process.
    Ms. Haaland. Okay, that is great. Yeah, so I will submit 
those questions, and I will yield back, Chairman.
    [The information referred to was not available at the time 
of printing.]
    Mr. Garamendi. Thank you, Ms. Haaland.
    We are going to do a second round of questions here. I will 
start that, and then Mr. Lamborn will--without objection, the 
committee will welcome Mr. Lamborn to the hearing. And I 
understand he has----
    Mr. Lamborn, I am glad you showed up, but Mr. Langevin is 
here. I welcome you to the committee.
    Mr. Langevin. Lamborn and I get that all the time. So, 
thank you, Mr. Chairman. And I want to thank you for allowing 
me to sit in and ask questions, and I appreciate the testimony 
of the panel and the work you are doing.
    Let me start with this. The fiscal year 2018 NDAA required 
that the Department describe what future focus mitigations they 
needed to ensure mission resiliency and what resources would be 
required to implement them, and this is, in particular, focused 
on the issue of climate change and building resiliency. 
Unfortunately, the Department has failed, in my view, to meet 
its statutory mandate, and I am concerned that the investments 
that we are making today go to waste if they do not factor in 
changes in the climate. The lack of forethought, I believe, is 
not only fiscally irresponsible, but it also places our service 
members and readiness at risk.
    So to all of our witnesses, this first question, I would 
ask just a simple yes or no. Do you agree that the changing 
climate poses a threat to our readiness? I will start, and I 
want to go right down the panel. It is a yes or no question.
    Secretary McMahon. Congressman, the answer is we 
acknowledge that weather is and climate are an impact on 
national security.
    Mr. Langevin. Thank you.
    Secretary Beehler. Army agrees.
    Mr. Mellon. Yes.
    Secretary Henderson. Yes.
    Mr. Langevin. Thank you. So as a followup, I want to ask 
what investment you are making in the fiscal year 2020 budget 
in order to mitigate risks that we are going to face in the 
short, medium, and the long term to our CONUS [continental 
United States] and OCONUS [outside continental United States] 
installations.
    Secretary Beehler. Sir, on behalf of the Army, one 
significant thing that we are already doing is launching 
installation energy and water assessment plans at most of our 
major installations, starting with the most important. We hope 
to have 22 completed by the end of this fiscal year, meaning 4 
months from now.
    And as part of the assessment, they will factor in things 
such as extreme weather, climate, and other considerations as 
to how the installation shapes up as far as judging its 
resiliency in energy and water, where it is strong, where it is 
weak, and what are the corrective actions that would be needed 
to be taken. And so we should have those results fairly soon.
    Obviously, after these plans are complete, I would be happy 
to share the combined results with the committee.
    Mr. Langevin. Thank you. We welcome that.
    Mr. Mellon. From a Department of the Navy perspective, very 
similarly, we are launching what we are calling an optimization 
and modernization strategy, and that is really to look across 
the board, both at optimization on a base--so if you think 
about the devastation in Lejeune, we are reevaluating the 
rebuild and where those rebuild are actually going to occur, 
physically relocating some of those facilities from where they 
used to be located on the base to a different portion that is 
much more secure from environmental effects.
    Additionally, as we walk through our modernization, we are 
including in that resiliency, not just from a climate, energy, 
water perspective, but resiliency from a cyber perspective. So 
all of that is being wrapped in as we look installation by 
installation, we overlay those MILCON projects and those 
modernization projects that are part of the budget, and we are 
ensuring as part of the design and build process we are 
incorporating those right characteristics into the fundamental 
design.
    Secretary Henderson. The Air Force philosophy is 
essentially the same as the Navy, which basically is we 
incorporate those resiliency attributes into our projects 
through our FSRM funding. As we modernize or upgrade a 
facility, we bring it up to current code, and as we have the 
opportunity, for instance, at Tyndall Air Force or Offutt Air 
Force Base, where we can raise the flood elevation for where we 
put facilities, or where we take a damage or destroyed facility 
and relocate that out of the flood plain or an inundation zone, 
we are certainly taking a look at that.
    We are also putting more resilient attributes into our new 
buildings and for the stuff that we are repairing. So for any 
facilities that get rebuilt at Offutt Air Force Base, if it is 
still in kind of a flood-zone area, we would use materials that 
are resistant to that. The same way at Tyndall Air Force Base; 
we would build it to resist the weather or whatever the threats 
happen to be.
    We do this through our FSRM program, and the biggest thing 
the Air Force is doing for that is getting the funding 
available to do that. The funding we have requested for the 
last 6 or 7 years has essentially been funding on triage mode. 
We are just--we are taking care--we are just taking a worst-
first approach where the funding only goes to the most mission-
critical facilities that are in the worst shape. And when we 
are talking about resiliency, that takes a long-term proactive 
look and proactive investments at our facilities. And so we 
have changed our entire investment strategy this year, and I 
would ask Congress' help in that.
    Essentially, we have taken away--we have instituted a new 
strategy to invest proactively in our facilities, require a 2 
percent funding level of our plant replacement value, and it 
results in a $2 billion increase overall in the infrastructure 
portfolio for the Air Force. That allows us to invest in 
facilities at the lowest cost point in the life cycle of the 
facility and to make proactive investments so we can get ahead 
of the backlog, and so we are not spending five to seven times 
the amount it takes to build a facility that has failed when we 
could fix it earlier in the life cycle at quite a bit less than 
that, just because we are proactive and we can get ahead of 
that. So you will see that in our budget request this year, 
sir.
    Mr. Langevin. I know my time has expired. I am encouraged 
to hear that, because otherwise, we are doing the taxpayers a 
disservice if we are not thinking about these things and 
spending taxpayer dollars wisely, planning ahead, not just 
pouring good money after bad, so----
    Secretary McMahon. And, Congressman, from an OSD 
perspective, across the enterprise, it is integral for us to 
look at resiliency, not just in one category or another at a 
time, but looking at it holistically as you heard. Cyber plays 
an integral role there. Water plays an integral role in that, 
and energy in addition to climate and weather. And what we are 
trying to take is a more holistic look at how we build and how 
we spend our dollars.
    Mr. Langevin. Thank you.
    Thank you, Mr. Chairman.
    Mr. Garamendi. Mr. Langevin, thank you for joining us, and 
thank you for making this issue relevant over the last couple 
of years and particularly in the last NDAA.
    Mr. Langevin. Thank you.
    Mr. Garamendi. And so we are going to carry on with this.
    A couple of things. There are some excellent examples of 
failure to maintain, Camp Lejeune being one. If those roofs had 
been maintained over the last 40 years, upgraded sometime over 
the last 40 or 50 years, the loss and damage would have been 
substantially less.
    The other thing, and this was in the written testimony, I 
am going to just bring it up quickly here, and that is the 
standard to which we are building projects in the future. I 
know, Mr. McMahon, in your testimony you spoke to this. I want 
to be--I want specific information about what upgrades in the 
standards that the military is using for construction. This is 
everything from wind to water damage, roofs, all of those kinds 
of things, energy resiliency and cyber.
    So we are not going to go into the specifics today, but 
each of you raised this question, probably because we asked 
it--not probably, but because we asked it, and we want to see 
the specifics. And so we will come back, for the record, the 
specific standards that are going to be used.
    With regard to the facilities that were severely damaged 
this last year, flooding at Offutt, Camp Lejeune, and Tyndall, 
and other places, the design plans for rebuilding are going to 
be under very intense review by the committee, as to the 
standard, as to the relocations, as to the question of moving 
facilities perhaps somewhere else and not having them at that 
base at all in the future. So we will review that in detail. 
Some of this has been made available to the professional staff. 
They are reviewing it. They will go into it in far more detail, 
as will the members of the committee, all of us whom share a 
common interest in it.
    I do want to raise one more point before I pass this on to 
Mr. Wilson--Mr. Lamborn having passed the opportunity for a 
second round, although he may get engaged yet again--and that 
has to do with a recurring question that has occurred in my 
district, in California, and that has to do with both MILCON 
projects and FSRM projects in which local contractors are not 
employed, but rather national contractors, and in many cases, 
very few, if any, local subcontractors. This is an ongoing 
issue.
    I don't expect a response now. I want all four of you to be 
aware that this is an issue that I am concerned in, was 
concerned 6 years ago when we tried to put a 60-mile radius 
around all bases requiring that, I think, 40 percent be local 
contractors in that area. That didn't work out, I think, 
because maybe it was one of the bases, 60 miles would not get 
you outside the base. So in any case, I am going to come back 
at this over and over again.
    It also relates to hours, working conditions, the State 
laws, and what appears to be the avoidance of State laws by 
national contractors, some of whom call their subcontractors 
their employees--excuse me--some of whom call their employees 
subcontractors rather than employees, an ongoing issue that I 
first dealt with in the 1990s as insurance commissioner in 
workers' compensation. So we are going to come back at this 
again, so heads up.
    With that, I will pass this off to Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Mr. McMahon, one final question, the European Defense 
Initiative is critical to allowing for faster response to the 
event of any aggression against the territory of our NATO 
[North Atlantic Treaty Organization] allies. What are the top 
military construction projects for the European Deterrence 
Initiative in the budget? And how does this compare to projects 
and funding from our partners?
    Secretary McMahon. Congressman, I do not have the list in 
front of me exactly where we are. It continues to be an 
integral part. I, in fact, leave for EUCOM [U.S. European 
Command] on Friday to look personally at some of the 
construction, but I will take that for the record and come back 
to you and show you that.
    [The information referred to was not available at the time 
of printing.]
    Mr. Wilson. Thank you very much.
    Secretary McMahon. Yes, sir.
    Mr. Garamendi. Thank you, Mr. Wilson.
    Mr. Crow, you are next.
    Mr. Crow. Thank you, Mr. Chairman.
    Just picking up on the topic of energy resiliency and 
microgrids. Just curious, you know, I know each of the services 
are doing a variety of initiatives and things, but we are only 
going to be as strong as our weakest link, and in some cases, 
that could be the local communities, you know, where a large 
percentage of our service members actually live and spend a lot 
of their time. So what is being done between the three 
different services, and Mr. McMahon as well, to make sure we 
are integrating with those local communities, sharing best 
practices, and providing resources and tying in our resiliency 
plans with their resiliency plans as well?
    Secretary McMahon. If I could start, Congressman, and Mr. 
Beehler referred to one of the activities that we have ongoing, 
which is where we literally pull the plug on the installation. 
Obviously, there is a very local impact from that. But what 
happens is the lessons learned that come out of that activity 
then are shared, not only across that service, but across 
services. And we have funded now, at this point, five different 
exercises, three tabletops, to be able to share that kind of 
information, to be able to not only educate the leadership, but 
more importantly, drive behaviors as we move forward with 
modifying our installations in trying to answer that energy 
resilience.
    Secretary Beehler. And on behalf of the Army, I will just 
state that, certainly with Fort Bragg, the community was 
definitely very much drawn in, and they will be a part of the 
review process and certainly be kept every step of the way and 
in a whole host of areas, not just this. And the major bases 
interact with the local governance extremely well on an ongoing 
basis, and so this will be just one more aspect that will 
further cement a well-coordinated effort.
    Mr. Crow. I guess just to clarify the question for Mr. 
Mellon and Mr. Henderson, since we are running low on time 
here, I guess I am speaking less to the issue of whether we are 
sharing lessons learned from the base test itself as much as 
are we working with and providing resources and help to local 
communities so they develop their own resiliency plans and 
conduct tests as well so that they are prepared?
    Mr. Mellon. So from a Department of the Navy perspective, I 
will try and answer that in two parts. One, as we look at 
modernization and resiliency for each one of our sites, part of 
that dialogue is with the local providers, whether it is 
utilities, water, wastewater treatment, whatever it is, and 
that dialogue is bidirectional in terms of understanding where 
their risks are, what dependencies we have, what our 
mitigations might be as we are looking at how we mitigate those 
risks and provide that resiliency for the base.
    So there is a bit of a variation depending on how that 
interaction is and where they are at. Part of it is we also 
look at how can we best utilize the resources that are 
available. So in some instances where we need to make 
improvements, we look for opportunities to partner with the 
private sector, provide them that opportunity to meet that 
service, enter into a longer term agreement but not necessarily 
have to invest Navy dollars in order to do that. And we are 
doing that in several areas, and if you would like, I can 
provide you some of those examples as part of the record.
    Secretary Henderson. Just a couple initiatives the Air 
Force is looking at. As we have more and more started 
privatizing utilities, of course, we are intrinsically linked 
to the public utility providers that provide that. Two big 
initiatives we are doing. One of them we call the mission 
threat analysis, and this has to do with identifying where our 
vulnerabilities are. In other words, if you are flying a 
remotely piloted aircraft and your cockpit is in Hawaii or 
somewhere in the Midwest, you might have two or three relay 
stations to get to a command center that is tracking that 
overseas in Germany or the Middle East, and then another link 
to get into the people launching and recovering the actual 
aircraft.
    If at any point along there--it is not just energy 
resiliency at that base, but if at any point there we lose 
power or we have some type of an impact or some threat impact, 
we have to know how to make all those nodes resilient along the 
way. So understanding the vulnerabilities, and then once we do 
that, we are getting after--one of the initiatives we are 
looking at was energy as a service to the base, but now looking 
at energy resilience as a service. So in other words, writing 
those resiliency requirements into our privatized contracts 
with the people who are providing that.
    Mr. Crow. Thank you. I appreciate that.
    I yield back, Mr. Chairman.
    Mr. Garamendi. Ms. Slotkin.
    Ms. Slotkin. Sure. Mr. McMahon, I am just going to go back 
to the climate change report that you all turned in in January, 
and the report--I was an assistant secretary at the Pentagon 
where we helped write the first report that was done under, at 
that point, a man named John Conyers, and on just sort of 
starting to think about how climate would impact facilities, 
bases, ranges, but also deployment of forces, if there is more 
conflict, the melting of the Arctic, et cetera.
    And so we--prior Congress issued this requirement for 
report and you provided it, but it really didn't take us 
anywhere further than the original report that we did back in 
2014. And I am just wondering, in particular, there is two 
areas where you didn't answer the questions. Number one, you 
were supposed to provide the top 10 most vulnerable locations 
or I guess bases in the world most vulnerable to climate 
change. And then more importantly to me, just for readiness, 
the cost estimates to mitigate the risks to those bases.
    And I am just wondering if there was a reason why you 
didn't answer those questions in the report.
    Secretary McMahon. Congresswoman, when we did the report, 
and with your background, you recognize that not all bases are 
created equal. And so the example that I use is that if we 
picked a rehab--or an R&R [rest and recuperation] installation, 
for example, in Hawaii, that may be facing climate change or 
impacts from weather, it did not--does not raise the same level 
of concern as perhaps one of the installations that we listed. 
And so what we tried to do is focus specifically on those most 
critical installations in the Department of Defense, and those 
came off of our 79 mission assurance installations, selected 
because of the importance of that. And in a closed environment, 
I would be happy to share with you why each of those 
installations was on the list.
    But with that, what we did then is provide what we assumed 
to be our assessment of what the threat was based upon the five 
categories that the Congress gave us to consider for that. And 
as you know, those five categories, neither Tyndall nor Camp 
Lejeune would have been covered.
    And so with that, what I would like us to be able to do in 
the future is attack this holistically, that is from an 
enterprise perspective, as we talk about resilience looking not 
only at climate and weather, but the other categories that I 
alluded to previously, to be able to talk about this in a way 
that we can paint a more effective picture and ensure that we 
have got the funding necessary to get to where we need to be.
    Ms. Slotkin. Yeah, I think we would all welcome that. I 
think, you know, including during my time at the Pentagon, 
starting this conversation was a little bit like pulling teeth. 
And if you have a more comprehensive way to look at it or a 
more thoughtful way to look at it, I have no doubt that there 
is a better way than DOD tasking report, but I think we would 
welcome that. And I would say, you know, my understanding just 
living in the Army as an Army wife and now as an Army stepmom, 
just prudent planning for possible scenarios is what we do, 
right, and without the political piece of it, just--and I don't 
think we need more relevant examples than what has been going 
on in the past year with some of our bases.
    So your help getting out of what feels like pulling teeth 
and into a real affirmative, positive posture where, hey, this 
is just contingency planning like I do with any other potential 
factor, I think it would go a long way to making us feel like 
you are taking this seriously, and not because we keep asking 
you to, but because I actually believe it to be a factor that 
affects our operations.
    Secretary McMahon. I think--and I will speak for the 
services as well as OSD, I think all of us recognize that, for 
example, sea level is rising. Quite frankly, I am not worried 
about what the causal factors of those are; I have to ensure, 
along with my partners up here, that we are taking prudent 
action to make sure that we are preparing for whatever that 
threat might be. And I think we have seen some tools of recent 
that I would like to share with the Congress offline that said 
we think we can do a better job of planning in the future and 
provide a more holistic picture as we look at resiliency for 
installations.
    Ms. Slotkin. I think that would be great. Because I am not 
stuck on the politics. I just want to know we are doing the 
prudent planning. So I appreciate that.
    Secretary McMahon. Yes, ma'am.
    Mr. Garamendi. Thank you, Ms. Slotkin. The principle of the 
five Ps, I suppose, is at play here.
    Also, during the course of the testimony, all three--or 
four of you witnesses have discussed the issue of risk 
assessment for each installation, and I take that risk 
assessment to be all potential risks that are at that--that 
could occur at that particular facility. Maybe a typhoon, 
hurricane, tornado, whatever it might be.
    And so we are going to pursue that, and as we look at 
MILCON going forward, we are going to deal with that issue, 
which means you are going to get to deal with it too and come 
to us with specific ideas about how to deal with those risks.
    Mr. Langevin, I believe you have another round of 
questions.
    Mr. Langevin. I do. Thank you, Mr. Chairman.
    I want to go back, Mr. McMahon, just a little more 
specifically on Ms. Slotkin's question. I am glad she raised it 
in the way that she did. I wrote that language requiring the 
assessment of the top 10 most vulnerable military bases, as 
well as the costs to be associated. And I appreciate what you 
have to say, Mr. McMahon, about taking a holistic look, and 
that I applaud and I support that effort.
    It doesn't excuse the Department, though, from fulfilling 
the requirement in the law that was the way the language was 
written, and we are going back to the Department and asking 
again for a redo and to list the top 10 most vulnerable 
military bases to climate change specifically.
    Again, I applaud the holistic look on other challenges, but 
we need to know about the issues specific as it relates to 
climate change and then the costs associated with dealing with 
those effects.
    And the report did not confine the Department to just 
looking at CONUS, but looking at OCONUS as well. And so the 
Department completely missed the mark on that. You looked at 
CONUS, but you didn't include in the report, looking at it, 
again, holistically but as it relates specifically to climate 
change, looking at worldwide. So we are going back to you on 
that, and I would appreciate, hopefully we can get the answers 
to the questions the way that we have asked--in the way we have 
asked them.
    So as a followup, though, I do want to ask, how are you 
evaluating those risks as they evolve, what modeling is the 
Department using to evaluate the costs to mitigate the risks, 
and how are you prioritizing the climate mitigation efforts 
within your budgets?
    And just in case my time doesn't run out, in another 
related--unrelated topic but related to the topic at hand, the 
Department's first-ever comprehensive audit identified 
insufficient controls to ensure the accuracy and completeness 
of general property, plant, and equipment [PP&E], the second 
largest category of assets on the DOD balance sheet. The 
auditors found instances in which facilities had been 
physically demolished but remained on the property records, and 
the reverse, where they found facilities that physically 
existed but were not on the property records.
    So, you know, there are wasteful costs associated with 
these inaccuracies, and what are each of you doing to clean up 
the real property inventory processes and improve internal 
controls related to general PP&E?
    Secretary McMahon. Congressman, to that question, beginning 
with the Acting Deputy Secretary of Defense on down, on a 
continuous battle rhythm of being able to look at the direction 
for each of the services of going out and doing a 100 percent 
inventory, doing book-to-floor, floor-to-book assessment of 
where we are in terms of the audit. We acknowledge, as the 
Deputy Secretary has a number of times, that our books were not 
where they needed to be. And so we have taken an enterprise 
approach at the Department level with each of the services, 
with under secretaries from each of the services sitting in the 
room and ensuring between them, the Comptroller, and the CFOs 
[chief financial officers] that we are doing this, and the 
intent is to have this accomplished by the end of the fiscal 
year with regards to this specific question.
    Mr. Langevin. Thank you. And then on the other, on the 
modeling, and can we talk about that as well?
    Secretary McMahon. Congressman, I was a little quick in my 
first answer to have gotten to this point that I was kind of 
hoping to miss the modeling question. I will tell you that we 
need to do a better job. I will tell you that at least from my 
perspective, that the Corps of Engineers has demonstrated some 
capabilities that we have not holistically used in the 
Department.
    To the previous question that I was asked, I think there 
are some things that we can do better than we have done in the 
past in being able to articulate what those costs are. We do 
take it seriously, we acknowledge it, and we understand that 
there is an impact on many of our installations because of 
climate, and it does affect our national security.
    So our intent was not to demean or ignore the Congress with 
our first report. It came out of my office, quite frankly, so 
you are talking to the right person. Our job is to ensure, 
though, that we communicate to you what we see the risks. And 
if asked again, I think we would take a different approach a 
year from now utilizing some better tools to be able to do that 
assessment.
    Mr. Langevin. Thank you, Mr. McMahon, I appreciate that. 
Hopefully, when the Department does the re-do, we will get the 
report in the way that we required it. Thankfully, the people 
have reelected me for at least another 2 years, I hope more 
than that, but I will be around for a while, and I am not going 
away, and I hope we can work together on this and get the 
answers we need. I appreciate it.
    Secretary McMahon. Congressman, I hope we can as well, and 
I hope we together can take a holistic approach to this 
question of resilience.
    Mr. Langevin. Fair enough. Thank you.
    Thank you, Mr. Chairman. Mr. Chairman, I just want to thank 
you for holding this important hearing, the work that you are 
doing, whether it is on the climate change issue or resiliency 
as a whole and as it relates to many other topics. I appreciate 
your leadership----
    Mr. Garamendi. Thank you.
    Mr. Langevin [continuing]. And again appreciate you 
allowing me to sit in on this hearing. Thank you.
    Mr. Garamendi. Thank you for joining us, and thank you for 
making this an issue in the last NDAA. It is certainly going to 
be an ongoing issue here.
    I would just add that, you know, nature has a way of also 
prioritizing. We have three examples here of Camp Lejeune, 
Tyndall, and Offutt, in which three--I guess three--two--all 
three were not on the list, but here we are, about $8- to $10 
billion worth of problem going forward.
    I have got one more thing, Mr. Langevin--Lamborn. Have you 
got anything else that you want to ask?
    Mr. Lamborn. My questions have been asked and answered.
    Mr. Garamendi. Good.
    I have got one more thing, and that is an ongoing question. 
There was a new unanimous vote of both the House and the Senate 
to reject the emergency declaration that the President made. 
He, of course, vetoed that, and then went on to request that 
somewhere between $7- and $8-, maybe $9 billion of MILCON 
projects be diverted from military construction to a border 
wall and other things along the border.
    And this is a question for Mr. McMahon. Have the projects 
that are going--that are--let me put this in a different way. 
Have you identified--has there been any specificity in the 
identification of projects that are not going to be funded in 
this cycle as a result of the President's request?
    Secretary McMahon. Congressman--or, Mr. Chairman, as you 
are aware, guidance was provided by the Secretary--the Acting 
Secretary to the Comptroller on moving forward, with beginning 
to put together a list potentially, if, in fact, the 2808 
authorities were going to be used. That letter was signed, I 
think, on the 12th of April, with a date of 10 May of when the 
answer had to be back. Concurrent with that, the Acting 
Secretary asked for an assessment done by the Chairman of the 
Joint Chiefs.
    Where we are today is that there are roughly--of the 
original list that was provided to the Congress, there is 
roughly $4.3 billion worth of projects to potentially cover 
$3.6 billion worth of projects. So we have with certain 
criteria, skinnied that down, not included any projects that 
would be projected to be awarded in fiscal year 2019.
    In addition, any projects that were specifically focused on 
either housing or our barracks and dormitories. Where we are 
today is that list from each of the services is being collected 
at the OSD Comptroller level. There is no specific list done 
today, as of today, with a date of 10 May, of being able to 
finalize that list to go back and meet the Acting Secretary's 
position, should he elect to utilize the 2808 authorities.
    Mr. Garamendi. So 9 days from today, there will be a list 
of projects that are vulnerable to the 2808 request. Is that 
correct?
    Secretary McMahon. That list--yes, sir, my math is the same 
as yours, that would be it, yes, sir.
    Mr. Garamendi. And the amount of projects that are--the 
total value of the projects that are to be identified is how 
much?
    Secretary McMahon. We have identified--if, in fact, the 
authorities are used, it is $3.6 billion that the President has 
identified, that potentially could come from 2808 authorities. 
There are--when you look at the sum total, with the criteria 
that we have made public, that is approximately $4.3 billion 
worth. So a net difference between what we need and what is 
available of about $700 million.
    Mr. Garamendi. I think the use of the word ``we need'' is 
exactly what is in contention here. Do we need to do the 
military projects--the military construction projects or do we 
need to do the border wall issue?
    I don't think--well, I do believe it is necessary to tell 
you how important this question is, not only to the military 
with regard to its ongoing needs for military construction, 
which apparently in the past the military thought were 
essential, and the Congress agreed, therefore, those projects 
were put into the MILCON budget.
    The second question is that it is not at all clear that 
those projects will be re-funded in the future years. And also, 
there are many of us who really believe that the Constitution 
was written in such a way as to say that only Congress can 
appropriate money. So I will let it go at that.
    Be aware that this is a very real and profoundly important 
question to me and I believe to many other Members of Congress. 
This issue will go long, long beyond this Congress, should the 
President be allowed to literally appropriate money using an 
emergency declaration. It is a profoundly important question of 
the division of power and the role of Congress and the role of 
the President. And so it is not going to be--it is not going to 
be a one-and-done issue. So I will let that lie where it is.
    And with that, I want to thank the members--the witnesses 
for your testimony today. It was most helpful and fulsome. 
Also, your written statements cover most of the issues we have.
    I do want to alert you that we will be going back on the 
issue of sustainment, which we did not cover today. In some 
ways, you did cover that in your written testimony, but we need 
to get to that in great detail, and we will do so in future 
hearings.
    With that, the meeting is adjourned.
    [Whereupon, at 4:30 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                              May 1, 2019

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 1, 2019

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      

      
  
  
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 1, 2019

=======================================================================

      

                    QUESTION SUBMITTED BY MR. WILSON

    Mr. Wilson. A significant expense to DOD the annual cost to address 
corrosion, identified as more than $22 billion dollars in previous 
reports. A large portion of that cost relates to maintaining facilities 
and infrastructure. Fiber reinforced polymer composite materials are 
strong, durable, and corrosion-proof, making them uniquely capable to 
increase performance and resiliency of installations, while reducing 
unnecessary maintenance costs. To what degree has the Department 
deployed, or considered for deployment, composite infrastructure 
solutions? Are there barriers that presently exist to broader 
deployment?
    Secretary McMahon. The Department is aware of the unique mechanical 
properties that fiber reinforced composites, including carbon fiber 
reinforced composites, offer. These include resistance to corrosion in 
most environments experienced by our facilities and infrastructure. The 
Corrosion Policy and Oversight Office within the Office of the 
Secretary of Defense has collaborated with the Military Departments to 
sponsor 12 technology demonstration projects in this area over the past 
decade. The goal of these projects is to evaluate the suitability of, 
and benefits provided by, fiber reinforced composites in specific 
applications and, if successful, to pursue implementation of them 
throughout the Department by development or modification of Unified 
Facilities Criteria (UFC) and Unified Facilities Guide Specifications 
(UFGS) hosted on the Whole Building Design Guide (wbdg.org). To date, 
two technologies have reached implementation: one project resulted in a 
modification to a UFGS, and one project has resulted in the development 
of a new UFGS. The other projects may result in additional UFC and UFGS 
developments or modifications in the future as additional test results 
and performance data become available.
    The primary barrier to more extensive use of fiber reinforced 
composites is their relatively higher price compared to conventional 
materials with similar mechanical properties. Implementing fiber 
reinforced composites in a particular project requires justification 
through a life cycle cost analysis. Another barrier is the lack of 
accepted structural design criteria for some of the targeted 
applications.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BISHOP
    Mr. Bishop. The DOD April 26, 2019 Business Operations Plan for the 
Department talks about the need to reduce delays in recruitment of 
civilians that result in managers substituting ``more expensive 
military or contractor personnel in place of less costly federal 
employees.'' Cost is not the only dimension to this problem. What 
happens when a military works outside of the specialty for which they 
were trained to perform a civilian type function? Does that affect 
stress on the force and retention. Is this a harbinger or metric for a 
hollow force if and when such diversions happen too often?
    Secretary McMahon. This topic is not in my portfolio as the 
Assistant Secretary of Defense for Sustainment, and I defer to the 
Office of the Undersecretary of Defense for Personnel & Readiness for 
any detailed responses.
    Mr. Bishop. Describe briefly the analytical processes in your 
Department that specifically model your military force structure 
requirements and capabilities? Do these analytical processes 
specifically analyze requirements for each component, both Active and 
Reserve, along with the civilian workforce, as your budget 
documentation for the Department overall seems to suggest? Does the 
budget process, both with the budgetary uncertainty in Congress, or the 
way OMB and the Department's program and budget processes work create 
impediments to fully informing your decisions on the optimal balanced 
military and civilian force structure?
    Secretary McMahon. This topic is not in my portfolio as the 
Assistant Secretary of Defense for Sustainment, and I defer to Office 
of the Undersecretary of Defense for Personnel & Readiness for any 
detailed responses.
                                 ______
                                 
                   QUESTION SUBMITTED BY MS. STEFANIK
    Ms. Stefanik. Fort Drum is proud to lead the way and serve as a 
unique example of a DOD installation that has 100% of its energy 
provided by renewable energy sources, and that operates on the 
installation itself. While I understand and respect that you cannot 
comment specifically on ReEnergy's biomass fuel plant and its 
relationship with Fort Drum due to ongoing contract negotiations, I am 
curious, Secretary Beehler, if you can share some of the challenges, 
important lessons learned or highlights that would be beneficial for my 
colleagues and I--as well as the other services--to understand?
    Secretary Beehler. Thank you for recognizing that the Army is 
presently constrained in what it can offer as lessons learned from our 
privatized energy projects. I can however offer the following two 
general observations:
    <bullet>  With regard to any long-term contractual commitment for 
products or services, the Government's requirements can, and often do, 
change over time. Both parties to the contract should anticipate this 
possibility (or inevitability).
    <bullet>  Federal agencies must evaluate all purchasing strategies 
and options in order to anticipate, and adapt to, the market dynamics 
in order to optimize available resources to satisfy government 
requirements.
                                 ______
                                 
                   QUESTION SUBMITTED BY MS. ESCOBAR
    Ms. Escobar. I am concerned about the Department's approach to a 
critical aspect of installation resilience: management of stormwater. 
Congress has expressed clear support for utilities privatization 
including in the FY17 NDAA which specified that stormwater systems and 
components were intended to be included under title 10, section 2813 
which governs utilities privatization. Yet it appears the Department 
may not be taking full advantage of the efficiencies and benefits 
available from private-sector expertise through the utilities 
privatization program. Congress's concern about these issues has only 
been heightened by recent storms. Fort Bliss and other military bases 
around the country face serious threats from stormwater. Utilities 
privatization can be a valuable tool for the services to confront these 
threats, and to modernize water management on bases while improving 
efficiency, and potentially costs. The Army has been using this 
authority for nearly 15 years. The Air Force's 2019 Infrastructure 
Investment Strategy outlines goals to capitalize on private sector 
expertise. Considering the clear hazards on display this year at Offutt 
and Tyndall Air Force Bases, how do the Department and the Air Force 
plan to use these existing utilities privatization authorities, that 
include stormwater systems, to implement the provisions of the 
Infrastructure Investment Strategy?
    Secretary McMahon. Utilities Privatization is one of many 
authorities that the Department uses to improve the reliability of its 
utility infrastructure. While Title 10, Section 2688, enables the 
Department to convey utility systems, it does not statutorily define 
stormwater systems as eligible ``utility systems'' for privatization. 
As such, the Department relies on other authorities to address its 
stormwater infrastructure needs.
    The condition of the Department's stormwater conveyance systems 
varies widely by each Military Service. As noted in its May 2019 Report 
to Congress on Storm Water Conveyance Systems, Air Force stormwater 
conveyance systems are cited as performing at a degraded level with 
roughly half the inventory having a condition assessment rating from 
poor to failing. In alignment with its Infrastructure Investment 
Strategy, the Air Force has programmed over $190M in capital 
improvements to its stormwater conveyance systems from FY20 to FY26.

                                  <all>
</pre></body></html>
